OFFICE OF INSPECTOR GENERAL





AUDIT OF USAID/LEBANON’S
DEMOCRACY AND
GOVERNANCE ACTIVITIES


AUDIT REPORT NO. 6-268-09-002-P
NOVEMBER 9, 2008




CAIRO, EGYPT 

Office of Inspector General

November 9, 2008

MEMORANDUM

TO:    	       USAID/Lebanon Director, Denise A. Herbol

FROM: 	        Regional Inspector General/Cairo, Lloyd J. Miller /s/

SUBJECT:	      Audit of USAID/Lebanon’s Democracy and Governance Activities
               (Report No. 6-268-09-002-P)

This memorandum transmits our final report on the subject audit. This final audit report
includes three recommendations to USAID/Lebanon. We have carefully considered your
comments on the draft report and have included your response in appendix II.

The report contains three recommendations intended to improve the implementation of
USAID/Lebanon’s democracy and governance activities. Based on your comments and
the documentation provided, we consider that management decisions have been made
on all recommendations, and final action has been completed on recommendation no. 2.
A determination of final action for recommendations nos. 1 and 3 will be made by the
Audit, Performance and Compliance Division (M/CFO/APC) upon completion of the
planned actions.

Thank you for the cooperation and courtesy extended to the audit team during this audit.
I would like to express my sincere appreciation for the cooperation and courtesy
extended to my staff during the audit.
CONTENTS 

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 3 


Audit Findings ................................................................................................................. 4 


     Data Quality Should Be Strengthened ........................................................................ 7 


     Performance Management Plan Indicators Lacked Precise Definitions...................... 8 


Evaluation of Management Comments ....................................................................... 10 


Appendix I—Scope and Methodology......................................................................... 11 


Appendix II—Management Comments........................................................................ 13 


Appendix III—Operational Plan Standard Indicators for Fiscal Year 2007 .............. 15 


Appendix IV—Performance Management Plan Indicators for 

Fiscal Years 2006 and 2007.......................................................................................... 16 

SUMMARY OF RESULTS 

Lebanon is a parliamentary democracy. However, from the mid-1970s until the
parliamentary elections in 1992, civil war precluded the effective exercise of political
rights. With the withdrawal of Syrian troops in April 2005, Lebanon was no longer under
Syrian occupation, but it still lacked elements of sovereignty. In July and August 2006,
Lebanon was immersed in a 6-week war between Israel and Hezbollah. According to
mission information, the conflict led to $3.6 billion worth of material damages, a
23.5 percent drop in public revenues, a 7 percent loss of gross domestic product, and an
unemployment rate reaching 25 percent. (See page 2.)

USAID/Lebanon implemented its democracy and governance activities through (1) a
$19.5 million agreement with the State University of New York to provide training and
technical assistance to the Lebanese Parliament to enhance its legislative capabilities
and to strengthen municipalities and increase their effectiveness and (2) a $6.9 million
agreement with America-Mideast Educational and Training Services to manage small
grants to improve transparency and accountability. As of September 30, 2007,
USAID/Lebanon had obligated $12.1 million and had expended $6.7 million for its
democracy and governance activities. (See pages 2–3.)

As part of a worldwide audit of democracy and governance activities, the Regional
Inspector General/Cairo performed this audit to determine if USAID/Lebanon’s
democracy and governance activities achieved planned results and what has been the
impact. USAID/Lebanon’s democracy and governance activities partially achieved their
planned results in fiscal years 2006 and 2007, achieving the targets for 17 (63 percent)
of 27 performance targets. According to the mission, 10 targets were not achieved
because of (1) the 2006 war and its aftermath, (2) the absence of a country president
and a functional parliament, (3) and the political situation in the country. Considering the
turmoil in the country’s political instability and the security situation since 2006, the
overall impact of USAID/Lebanon’s democracy and governance program has been
positive.   For example, of the 944 municipalities participating in the municipal
governance program, 621 municipalities generated automated financial statements in
2006. By contrast, 561 municipalities were able to generate such financial statements in
2005 and 324 in 2004. (See pages 3–6.)

Even though USAID/Lebanon’s democracy and governance activities achieved
63 percent of its targets within difficult constraints, the audit noted that USAID/Lebanon
should strengthen its assessments of data quality and clarify definitions for its
democracy and governance indicators to be objective. (See pages 7–9.)

USAID/Lebanon agreed with the findings and recommendations in the report, has
already implemented corrective actions for one recommendation, and is in the process
of completing corrective action for the other two recommendations. Management
comments in their entirety are included in appendix II. (See page 13.)




                                                                                          1
BACKGROUND 

Lebanon is a parliamentary democracy in which the people constitutionally have the right
to change their government. However, from the mid-1970s until the parliamentary
elections in 1992, civil war precluded the effective exercise of political rights. Syria
intervened with a strong influence over Lebanese politics that continued until its
withdrawal in 2005. With the withdrawal of Syrian troops in April 2005, Lebanon was no
longer under Syrian occupation, but it still lacked elements of sovereignty. In July and
August 2006, Lebanon was immersed in a 6-week war between Israel and Hezbollah.
According to mission information, the conflict led to $3.6 billion worth of material
damages, a 23.5 percent drop in public revenues, a 7 percent loss of gross domestic
product (GDP), and an unemployment rate reaching 25 percent.

                                   Map of Lebanon




According to USAID/Lebanon’s 2007 Operational Plan, Lebanon lacks strong
government institutions to provide economic and social services, and various parties and
factions have tried to fill the gap. U.S. Government assistance has tried to consolidate
momentum after the end of Syria’s control over Lebanon and move Lebanon toward
transformation and economic growth. USAID/Lebanon’s democracy and governance
activities supported the Government of Lebanon to strengthen transparency, good
governance, and civil society. The activities were implemented by the following principal
partners.

•	 USAID/Lebanon awarded the State University of New York (SUNY) a $19.5 million
   cooperative agreement to provide technical assistance to the Lebanese Parliament
   to enhance its legislative capabilities and to strengthen municipalities and increase
   their effectiveness.


                                                                                       2
•	 USAID/Lebanon awarded America-Mideast Educational and Training Services
   (AMIDEAST) a $6.9 million cooperative agreement to manage small grants to
   improve transparency and accountability.

As of September 30, 2007, USAID/Lebanon had obligated $12.1 million and had
expended $6.7 million for its democracy and governance activities.

AUDIT OBJECTIVE
As part of a worldwide audit of democracy and governance activities, the Regional
Inspector General/Cairo performed an audit to answer the following question:

•	 Have USAID/Lebanon’s democracy and governance activities achieved planned
   results and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                               3
AUDIT FINDINGS 

USAID/Lebanon’s democracy and governance activities partially achieved their planned
results in fiscal years 2006 and 2007 for the standard indicators specified in the
operational plan and the mission’s performance management plan.               Of the 27
performance targets for both plans, USAID/Lebanon achieved the planned results for 17
(63 percent) performance targets, as seen in table 1. According to the mission, the
targets were not achieved because of (1) the 2006 war and its aftermath, (2) the absence
of a country president and a functional parliament, (3) and the political situation in the
country. Considering the turmoil in the country’s political instability and the security
situation since 2006, the overall impact of USAID/Lebanon’s democracy and governance
program has been positive.

              Table 1. Democracy and Governance Program Progress 

            Based on Achievement of Targets for Performance Indicators 


                                     Achieved     Not Achieved     Achieved     Not Achieved
            Monitoring               FY 2006        FY 2006        FY 2007        FY 2007
Operational Plan1                       N/A            N/A             5              6
Performance Management Plan2             5              3              7              1

Of the 11 performance indicators in the fiscal year 2007 operational plan, USAID/Lebanon
achieved or exceeded the targets for 5 indicators and did not achieve targets for 6
indicators. (See appendix III.) For example, the democracy and governance program
provided training to strengthen local government and decentralization to 2,082 individuals,
exceeding a target of 2,000 individuals. In addition, the democracy and governance
program provided civic education programs to 25,750 people, exceeding a target of
25,000 people. On the other hand, the democracy and governance program provided
assistance to improve organizational capacity to 6 civil society organizations, falling short
of a target of 12 organizations. Similarly, the program did not support any independent
and democratic trade/labor unions to promote international labor standards, falling short
of a target of one trade/labor union.

Of the eight performance indicators in the fiscal year 2007 performance management
plan, USAID/Lebanon achieved or exceeded the targets for seven indicators and did not
achieve the target for one indicator. (See appendix IV.) For the same eight indicators in
the fiscal year 2006 performance management plan, USAID/Lebanon achieved or
exceeded targets for five indicators and did not achieve targets for three indicators. For
example, in 2007, the democracy and governance exceeded its target of increased public
confidence in municipalities, realizing an 18 percent increase over a target of 10 percent.
In addition, the mission reported 6,073 municipality employees trained, exceeding its
target of 6,000. On the other hand, the democracy and governance program fell short of
its targets in fiscal years 2006 and 2007 for enabling the legal environment to strengthen
1
  The purpose of the operational plan is to provide a comprehensive, interagency picture of how
foreign assistance resources received by an operating unit will be used to support the foreign
assistance objectives and the transformational diplomacy goal.
2
 The purpose of the performance management plan is to assess and report progress towards
achieving a strategic objective.


                                                                                             4
the role of local government and municipalities through the passage of laws, decrees, and
orders to civil society organizations. For 2006, the mission reported 7 decrees and orders
passed, instead of a target of 10. For 2007, the mission reported 11 decrees and orders
passed, instead of a target of 15.

Although USAID/Lebanon achieved only 63 percent of the its intended targets in the 2007
operational plan and 2006 and 2007 performance management plans, the overall impact
of the program has been positive given the constraints facing the program. The
USAID/Lebanon mission director provided several examples of these constraints,
including more than 12 political assassinations and attempted assassinations. In addition
several other disturbances caused significant delays and interruptions to USAID/Lebanon
programs, which included the Cedar Revolution, the departure of the Syrian troops after
30 years of occupation, civil unrest, the 34-day war between Hezbollah and Israel in July
2006, and the evacuation or relocation of implementing partners. Because of these
constraints, achievement of program targets, especially at the local government level, has
been hindered. Nonetheless, USAID/Lebanon has achieved success in its democracy
and governance projects.

Under USAID/Lebanon’s transparency and accountability grants program to support civil
society organizations, AMIDEAST provided nearly $4 million in grants to support 131 local
nongovernmental organizations and civic initiatives. In addition, this program has had
other accomplishments, including a book and a Web site dealing with the legal rights of
Muslim women in religious courts on prenuptial agreements. Additionally, the Chamber of
Commerce, Industry, and Agriculture of Beirut and Mount Lebanon launched the first
issue of the Business Confidence Index. During site visits, the audit team observed six
examples of projects implemented by the program as follows:

•	 The Christian Association for the Blind received a $24,760 grant to create a guide on
   human rights in Braille and distribute 800 copies to blind residents in Lebanon to help
   this group of citizens to understand their rights in society.




       Volunteer at the blind association putting together copies of a Braille manual. 

                       Photo taken by RIG/Cairo auditor in April 2008. 



                                                                                           5
•	 SADER Publishers received a $92,275 grant to develop, in coordination with the
   Ministry of Justice, a compilation of all international, multilateral, and bilateral treaties
   approved by the Lebanese Parliament and ratified for use by judges and courts
   nationwide. According to the grant agreement, this will lead to stronger application of
   the rule of law, thereby benefiting citizens, professionals, and investors. All judges will
   receive a copy of the books; however, according to the implementer, the distribution
   has been delayed because of the political situation and the books are being held in a
   warehouse.




              Boxes sitting at the grantee’s warehouse waiting for distribution. 

                       Photo taken by RIG/Cairo auditor in April 2008. 


Under USAID/Lebanon’s municipal governance assistance program, the State University
of New York provided management work processes and systems, and professional
development and training for government officials and employees. During site visits to
municipalities, the audit team observed examples of the effect of the project.

•	 Of the 944 municipalities participating in the municipal governance program, 621
   municipalities generated automated financial statements in 2006. By contrast, 561
   municipalities were able to generate such financial statements in 2005 and 324 were
   able to do so in 2004.

•	 The implementing partner developed a municipal accounting system that has
   standardized accounting procedures and made the financial work of local government
   more transparent. This system also enabled municipalities to electronically manage
   the business, accounting, and reporting processes related to fixed assets and
   inventories.




                                                                                              6
      Recordkeeping before (left, manual records) and after (right, computer screen
   showing computer records) the implementation of the municipal governance program.
                    Photos taken by a RIG/Cairo auditor, April 2008.

•	 Most cases of the misuse of funds are being identified during the preparation of the
   annual financial statements, which is now automated in approximately 65 percent of
   the municipalities. Ongoing investigations continue in a number of municipalities that
   have recovered funds. As a result, approximately 5 percent of the annual budget in
   several municipalities has been recovered.

•	 Local government revenues have increased significantly as a result of the ability to
   efficiently, effectively, and legally collect municipal taxes. Based on the implementer’s
   2007 annual report, 570 municipalities collected increased revenue of approximately
   29 percent between 2003 and 2006.

Even though USAID/Lebanon’s democracy and governance activities achieved
63 percent of its targets within difficult constraints, as discussed in the following report
section, USAID/Lebanon should strengthen its assessments of data quality and clarify
definitions to ensure that its democracy and governance indicators are objective.

Data Quality Should Be Strengthened
Summary: Automated Directives System 203.3.5.2 states that operating units should be
aware of the strengths and weaknesses of its data and to what extent the data can be
trusted for management decisions. USAID/Lebanon has not performed data quality
assessments for its performance indicators. According to mission officials, they did not
conduct periodic testing and/or verification of data quality because they relied on
contractors to report data and ensure data quality, and they were not aware of the
requirement. However, data from one implementer revealed some errors in reported
results. Data quality assessments with periodic verification of reported results can ensure
consistent and reliable data. Without such assurances, decisionmakers may not have the
best data to make management decisions regarding performance and budget.

Automated Directives System 203.3.5.2 states that the operating unit should be aware of
the strengths and weaknesses of its data and to what extent the data can be trusted to


                                                                                          7
influence management decisions. Additionally, the Automated Directives System states
that data reported to USAID/Washington for Government Performance and Results Act
reporting purposes or for reporting externally on Agency performance must have had a
data quality assessment at some time within the three years before submission. Also,
USAID’s Performance Management Toolkit supplementary guidance document states
that the goal of assessing data from implementing partners and secondary sources is to
be aware of data strengths and weaknesses and the extent to which data can be trusted
when making management decisions and reporting. It also states that a practical
approach to planning data quality assessments includes an initial data quality assessment
and periodic quality reviews for completeness, accuracy, and consistency.

USAID/Lebanon has not performed data quality assessments because, according to
mission officials, they did not know that it was required. USAID/Lebanon should
periodically validate the integrity of the data collected on the reported indicators through
spot checks to ensure that the numbers reported are accurate and can be supported.
However, mission officials did not conduct periodic testing and verification of the quality of
the data provided and, therefore, relied too heavily on the results reported by the
implementing partners. In general, mission staff relied on contractors to report data and
ensure data quality. For example, source data from an implementing partner revealed an
error in reporting data in the wrong fiscal year because of a data entry error that occurred
for one of eight indicators in the implementing partner’s internal reports. This data entry
error was, in turn, used by the mission to report results in its performance management
plan.

Data quality assessments and periodic verification of reported results to supporting
documentation ensure consistent and reliable data is being collected for management
decisionmaking purposes as well as for reporting purposes. Without such assurances,
decisionmakers may not have the best available data by which to make management
decisions regarding performance and budgetary requirements. Consequently, the audit
team is making the following recommendations.

   Recommendation No. 1:        We recommend that USAID/Lebanon institute
   procedures to perform data quality assessments as required by Automated
   Directives System 203.3.5.2.

   Recommendation No. 2: We recommend that USAID/Lebanon develop a
   schedule to periodically sample and review its implementing partners’ data for
   completeness, accuracy, and consistency.

Performance Management Plan Indicators
Lacked Precise Definitions
Automated Directives System 203.3.4.2 defines the characteristics of good performance
indicators as direct, objective, useful for management, practical, attributable to USAID
efforts, timely, and adequate.       According to the Automated Directives System,
performance indicators should be unambiguous about what is being measured.
Performance indicators should also be precisely defined in the performance management
plan. To ensure that indicators are comparable over time, operating units should clearly
define and document the indicators to permit regular, systemic, and relative objective
judgment regarding their change in value or status.


                                                                                            8
Of the eight indicators in the USAID/Lebanon’s performance management plan, seven were
ambiguous or lacked clear definitions of what was being measured, and thus were not
objective.3 For example, some of the indicators’ definitions had different descriptions than
the indicator titles, or the unit of measure was not consistent with the indicator title.

For the indicator Increase in the number of municipalities issuing standardized financial
statements, the indicator title implies an increase (i.e., change), whereas the unit of measure
is the actual number of municipalities issuing standardized financial statements.
Furthermore, the figures reported for target and actual data for fiscal years 2006 and 2007
reflect the cumulative number of municipalities since program inception. A reader evaluating
data from the performance data table could interpret the 2007 actual data as an additional
621 municipalities issued standardized financial statements in the current year, rather than
since the program began in 2005. Since the actual data report for fiscal year 2006 was
561 municipalities, the increase for fiscal year 2007 was 60 municipalities.

For the indicator Private sector companies and nongovernmental organizations develop
efficient and transparent practices, according to its definition, the indicator measures new
measures adopted. In contrast, according to the indicator unit of measure, the indicator
measures the number of private sector companies and non-governmental organizations
adopting new measures.

The mission’s cognizant technical officer was not aware that the performance indicators
were ambiguous.       Moreover, the cognizant technical officer disagreed that the
performance indicators were not clearly defined. However, USAID/Lebanon plans to hire
a consultant firm to conduct a data quality assessment that will, among other things,
review the indicators. The mission expects this review to allow any necessary revisions.
If performance data indicators are not clearly and consistently defined, the data collected
are unlikely to permit a useful assessment of progress toward the relevant result over
time.

    Recommendation No. 3: We recommend that USAID/Lebanon update its
    performance management plan to clarify definitions for its democracy and
    governance indicators to be objective in accordance with Automated Directives
    System 203.3.4.2(b).




3
 All of the indicators presented in appendix IV, except for indicator number 7, were not clearly
defined.


                                                                                              9
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/Lebanon agreed with the three
recommendations and developed specific plans to implement each of the
recommendations.

In response to recommendation no. 1, USAID/Lebanon contracted a firm to conduct
performance management work, including data quality assessments; that will be
performed in January 2009. In addition, USAID/Lebanon’s mission director sent detailed
guidance to cognizant technical officers on the issues identified during the audit and the
mission’s expectations on program data. As a result of these planned actions, we
consider that a management decision has been reached for this recommendation.
Documentation supporting the completed actions should be sent to M/CFO/APC for final
action.

In response to recommendation no. 2, USAID/Lebanon issued a memo to cognizant
technical officers outlining detailed guidance on the issues identified during the audit and
the mission’s expectations on validating implementing partner’s data. As a result of
these actions, we consider that both a management decision and final action has been
reached for this recommendation.

In response to recommendation no. 3, USAID/Lebanon stated that it contracted a firm to
conduct performance management work; including a data quality assessment that will be
performed in January 2009. USAID/Lebanon will immediately thereafter implement
recommendations.     As a result of these planned actions, we consider that a
management decision has been reached for this recommendation. Documentation
supporting the completed actions should be sent to M/CFO/APC for final action.

As a result of the mission’s actions to implement these recommendations, management
decisions and final action have been completed for recommendation no. 2.
Determination for final action for recommendations no. 1 and 3 will be made by the
Audit, Performance and Compliance Division (M/CFO/APC) upon completion of the
actions planned by the mission. Mission comments in their entirety are included in
appendix II.




                                                                                         10
                                                                             APPENDIX I




SCOPE AND METHODOLOGY 

Scope
RIG/Cairo conducted this performance audit in accordance with generally accepted
government auditing standards to determine if USAID/Lebanon’s democracy and
governance activities are achieving their intended results and what the impact of its
program has been. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective.

We reviewed all 11 democracy and governance program indicators included in the fiscal
year 2007 operational plan and all 8 indicators included on the performance
management plans for fiscal 2006 and 2007. The main implementers were the State
University of New York (SUNY) and America-Mideast Educational and Training Services
(AMIDEAST). The audit covered the 2-year period from October 1, 2005, through
September 30, 2007. As of September 30, 2007, USAID/Lebanon had obligated $12.1
million and expended $6.7 million for its democracy and governance activities.

We conducted our audit at USAID/Lebanon in Beirut from February 28, 2008, through
June 24, 2008. We visited the Beirut offices of the two implementing partners, State
University of New York and AMIDEAST. In addition, the audit team made site visits to
10 municipalities under the local governance and decentralization program managed by
SUNY. The municipalities were Bourj Hammoud, Batroun Union, Tripoli, Mejdlaya,
Hazmieh, Aaraya, Aabadieh, Daroun-Harissa, Jounieh, and Beit Merry. The audit team
also made site visits to seven recipients under the transparency and accountability
grants program managed by AMIDEAST. The recipients were the International
Management and Training Institute, Telecommunications Regulatory Authority, Lebanon
Iqra’ Association, Christian Association for the Blind, SADER Publishers, Daily Star, and
Nahwa Al-Muwatiniya.

In planning and performing the audit, we assessed significant management controls
related to the achievement of planned results.             Specifically, we obtained an
understanding and evaluated the controls relating to (1) the fiscal year 2007 operational
plan (new requirement for fiscal year 2007), (2) the fiscal year 2007 performance
monitoring plan, (3) the mission’s Federal Managers’ Financial Integrity Act of 1982
assessment, (4) the oversight performed by cognizant technical officers, (5) performance
measures, and (6) data quality assessments. We also conducted interviews with key
USAID/Lebanon personnel, implementing partners, Lebanese government officials, and
beneficiaries. There were no prior audits relevant to this review.

Methodology
To answer the audit objective, we reviewed the fiscal year 2006 and 2007 performance
management plan and the fiscal year 2007 operational plan planned and actual results.
At USAID/Lebanon, the democracy and governance program reported results for 11



                                                                                       11
                                                                              APPENDIX I



standard indicators for the 2007 operational plan and 8 standard indicators for the 2006
and 2007 performance management plans. We validated performance results and
compared reported information to documented results from implementer progress
reports for these indicators in order to verify the mission’s determination of the project’s
performance. If the mission met 80 percent of the target for an indicator, we concluded
that the mission achieved the target for that one indicator.

We selected the two main agreements that were active during our audit period and for
those agreements, we reviewed the implementing partners’ agreement documents,
progress reports, and mid-term evaluations.

We also reviewed applicable policies and procedures for USAID/Lebanon’s democracy
and governance activities. These included the mission’s Federal Managers’ Financial
Integrity Act of 1982 assessment; the Foreign Assistance Act of 1961, Section 116 (e);
USAID’s Automated Directives System chapters 201, 203, 253, 324, 350 and 621; and
Executive Order 13224, Prohibition on Terrorism Financing.




                                                                                         12
                                                                          APPENDIX II 




MANAGEMENT COMMENTS 



September 26, 2008

MEMORANDUM

To:                Regional Inspector General/Cairo, Lloyd J. Miller

From:              USAID/Lebanon Mission Director, Thomas Staal

Subject:           Audit of USAID/Lebanon’s Democracy and Governance Activities
                   (Report No. 6-268-08-00X-P)

USAID/Lebanon agrees with the findings and each of the three recommendations.
Below please find our plan of action to correct the issues noted:

Recommendation No. 1 states “We recommend that USAID/Lebanon institute
procedures to perform data quality assessments as required by the Automated
Directives System 203.3.5.2.”
Mission Response: USAID/ Washington OAA was requested to incrementally fund the
Integrated Managing for Results (IMR2) contract (RAN-M-00-04-00049) contract with
Management Systems International in the amount of U.S. $123,000 to conduct
performance management work including a data quality assessment for USAID/Lebanon
in compliance with the requirement of ADS 203.

Recommendation No. 2 states “We recommend that USAID/Lebanon develop a
schedule to periodically sample and review its implanting partners’ data for
completeness, accuracy and consistency.”
Mission Response: In the last month of every quarter USAID/Lebanon CTOs will visit
their implementing partners to sample and review their data for completeness, accuracy
and consistency.

Recommendation No. 3 states “We recommend that USAID/Lebanon update its
performance management plan to clarify definitions for its democracy and governance
indicators to be objective in accordance with Automated Directives System 203.3.4.2(b).”
Mission Response: USAID/ Washington OAA was requested to incrementally fund the
Integrated Managing for Results (IMR2 (RAN-M-00-04-00049) contract with
Management Systems International in the amount of U.S. $123,000 to conduct
performance management work including a data quality assessment for USAID/Lebanon
in compliance with the requirement of ADS 203.

Attachments: a/s



                                                                                     13

                                                                          APPENDIX II 



From: Herbol, Denise

Sent: Tuesday, October 28, 2008 8:24 AM

To:      Miller, Lloyd (Cairo/RIG)

Lloyd,

As a follow up to the Mission’s response to the draft “Audit of USAID/Lebanon’s
Democracy and Governance Activities”, below are specifics as how the Mission will
address the recommendations:

Regarding Recommendations No. 1 “We recommend that USAID/Lebanon institute
procedures to perform data quality assessments as required by the Automated
Directives System 203.3.5.2.” and No. 3 “We recommend that USAID/Lebanon update
its performance management plan to clarify definitions for its democracy and
governance indicators to be objective in accordance with Automated Directives System
203.3.4.2(b)” in FY 08 USAID/Lebanon contracted Management Systems International
to conduct performance management work including a data quality assessment for
USAID/Lebanon in compliance with the requirement of ADS 203. USAID/Lebanon will
comply and immediately implement all recommendations that will result from the data
quality assessment to be performed in January 2009.

As for Recommendation No. 2 “We recommend that USAID/Lebanon develop a
schedule to periodically sample and review its implementing partners’ data for
completeness, accuracy and consistency”, I signed the attached MEMO regarding the
CTOs visits to implementing partners, frequency of visits, and sampling and reviewing
their data for completeness, accuracy and consistency.

Denise A. Herbol, Mission Director USAID/Lebanon




                                                                                        14
                                                                                      APPENDIX III


                    Operational Plan Standard Indicators for Fiscal Year 2007

                                                                      Target      Actual
                      Performance Indicator                          FY 2007     FY 2007       Achieved4
1. Number of national legislators and national legislative staff
attending US government sponsored training or educational                50          70           Yes
events
2. Number of draft laws subject to final vote in new or
                                                                         1           0             No
transitional legislatures receiving US government assistance
3. Number of subnational governments receiving US
governmental assistance to increase their annual own-source             250         342           Yes
revenues
4. Number of individuals who received US government
assisted training, including management skills and fiscal
                                                                       2,000       2,082          Yes
management, to strengthen local government and/or
decentralization
5. Number of local mechanisms supported with US
government assistance for citizens to engage their                       5           2             No
subnational government
6. Number of civil society organizations using US government
                                                                         5           1             No
assistance to promote political participation
7. Number of civil society organizations using US government
                                                                         12          6             No
assistance to improve internal organization capacity
8. Number of civil society organizations’ advocacy campaigns
                                                                         11          9            Yes
supported by US government
9. Number of positive modifications to enabling
legislation/regulation for civil society accomplished with US            1           0             No
government assistance
10. Number of people who have completed US government
                                                                      25,000      25,750          Yes
assisted civic education programs
11. Number of independent and democratic trade/labor unions
supported by US government to promote international core                 1           0             No
labor standards




      4
       We concluded that the mission achieved its results if it met or exceeded at least 80 percent of
      performance indicator targets.


                                                                                                   15
                                                                                    APPENDIX IV


               USAID/Lebanon Performance Management Plan Indicators for
                              Fiscal Years 2006 and 2007

                                 Target      Actual                   Target      Actual
    Performance Indicator       FY 2006     FY 2006     Achieved     FY 2007     FY 2007    Achieved5
1. Increased public
                                  10%         22%          Yes         10%         18%          Yes
confidence in municipalities
2. Enabling legal environment
that strengthen the role of
                                   10           7           No          15          11          No
local government and
municipalities
3. Increased resources
identified resulting from         20%         31%          Yes         30%         29%          Yes
implementing existing laws
4. Increase in the number of
municipalities issuing
                                  500          561         Yes          700        621          Yes
standardized annual financial
statement6
5. Increased number of
municipality employees that       5,000       3,236         No         6,000      6,073         Yes
are being trained
6. Private sector and non-
governmental organizations
                                    7           7          Yes           3          5           Yes
develop efficient &
transparent practices
7. Increased number of
government actions based on         4           6          Yes           1          4           Yes
NGO/individual initiatives
8. Number of signed
agreements with USAID              14          11           No           8          7           Yes
assistance




   5
     We concluded that the mission achieved its results if it met or exceeded at least 80 percent of
   performance indicator targets.
   6
     Information reported for this performance indicator was incorrectly reported for both years due
   to data misreported by both the implementer and the mission. Actual results for fiscal year 2006
   are 2007 data. Actual results for 2007 were not available until the end of June 2008.


                                                                                                 16
U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave, NW 

         Washington, DC 20523 

           Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
